                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

  Case Number: AI0120089                                                                      Page 1 of 1



                  We assessed an allegation ofplagiarism and duplicate submission by the PI l and Co-PI2 (the
          subjects) in an NSF proposal. 3 We concluded the allegation was primarily the result of confusion.
          The subjects misunderstood instructions from a program officer regarding submission ofproposals
          with related research, and-did not list all current and pending funding or all authors.
                  We determined there was insufficient substance to the allegation to warrant further
          investigation. We explained the process the subjects should follow in submittirig future proposals.
          Accordingly, this case is closed.




NSF oro Fonn 2 (11/02)
